•

                         U.S. Small Business Administration
'                            Office of Inspector General
                               Washington, DC 20416

                                                           AUDIT REPORT
                                                    Issue Date:
                                                    September 30, 1998
                                                    Number: 8-8-H-009-026
    TO:          Robert J. Moffitt
                 Associate Administrator
                 Office of Surety Guarantees

                  lfr j fi(J;;., JrrL
    FROM:        ~~r L. McClintock
                 Assistant Inspector General
                 for Auditing

    SUBJECT:     Audit of Safeco/First National Surety Company

           This transmits the Independent Accountant's Audit Report on Safeco I
    First National Surety Company (Safeco). The report by Cotton & Company,
    CPAs, discusses problems related to (1) a bond rider issued that did not bind the
    co-obligee to the contract; (2) a bond issued after work had commenced; (3)
    bonds issued for a single project that exceeded the statutory limit; (4)
    underwriting files that were not retained; (5) unallowable expenses claimed; (6)
    recoveries not pursued; and (7) surety fees which were not remitted to SBA. As
    a result, we are questioning $486,388 and making 7 recommendations.

           You may release this report to the duly authorized representative of
    Safeco at your discretion. This report may contain proprietary information
    subject to the provisions of 18 USC 1905. Therefore, you should not release this
    report to the public or another agency without permission of the Office of
    Inspector General.

           The findings in this report are the auditors' conclusions, and the
    report recommendations are subject to review, management decision, and
    action by your office in accordance with existing Agency procedures for
    audit follow-up and resolution. Please record your management decisions on
    the SBA Forms 1824, Recommendation Action Sheets, which are provided with
    this report, within 30 days.

           Should you or your staff have any questions, please contact Victor R.
    Ruiz, Director, Headquarters Operations, at (202) 205-7204.
•




                                  INDEPENDENT ACCOUNTANT'S

                          REPORT ON THE PERFORMANCE AUDIT OF

                                     SAFECO/FIRST NATIONAL




    Performed by:

    Cotton & Company, LLP
    Certified Public Accountants
    333 North Fairfax Street, Suite 401
    Alexandria, Virginia 2231
                                     COTTON &COMPANY CERTIFIED Pusuc AccouNTANTS. LLP

                                   333 NoRTH FAIRFAX STREIT •     SuiTE 401              •     ALEXANDRIA, VIRGINIA 22314


DAVID L. Conos_ CPA, CFE                                 0.\ICHAEL W. GILLESPIE. CPA. CFE                                      ELLEN P. REED. CPA
CHARLES HAY\t'ARD. CPA, CFE                              CATHERINE   L.   f'.iOCER.l..   CPA                                   ,\1ATIHEW H. JOHNSON, CPA




                                                               June 16, 1998


         U.S. Small Business Administration
         Office of Inspector General


         BACKGROUND

                 The Small Business Administration's (SBA) Surety Bond Guarantee (SBG) Program, authorized
         by the Small Business Investment Act of 1958, as amended, was created to assist small emerging and
         minority construction contractors. SBA indemnifies surety companies from potential losses by
         providing a Government guarantee on bonds issued to the contractors. SBA guarantees 70 percent for
         contracts not exceeding $1.25 million under the Preferred Surety Bond (PSB) Program. The SBG
         program is administered by SBA 's Office of Surety Guarantees (OSG).

         OBJECTIVE, SCOPE, AND METHODOLOGY

               SBA 's Office of Inspector General (OIG) requested Cotton & Company to conduct a
        performance audit of Safeco/First National Surety Insurance Company. The primary objectives were to
        determine if:

         1.        Safeco/First National complied with SBA's and its own policies and procedures in applying for
                   bond guarantees for which SBA paid claims.

         2.        Claims and expenses paid by SBA were allowable, allocable, and reasonable.

         3.        Fees due SBA were accurately calculated and remitted in a timely manner.

                 We obtained the Claim Payment History report from SBA's OSG, which lists all claim
        payments made to and recoveries received from Safeco/First National since November 1992, when it
        started in the program, through April 1998. This report showed six defaulted bonds that had claim
        payments. We judgmentally selected three of the six bonds to test claims and underwriting procedures.
        Total claim payments (net of recoveries) in the sample equaled [. €\£. 4    ) Total claim payments (net
        of recoveries) in the population equaled [ W.. "'-   J Thus, the sample amount represents 95.88
        percent of the total population. We selected four additional bonds that did not have claims paid by SBA
        and reviewed Safeco/First National's compliance with underwriting procedures. Sample bonds are
        listed in the attachment.



                                                                           1
              703/836·6701    •   FAX 703/836·0941   •   HTIPi/WWW.COTTONCPA.COM                       •   E·MAIL DCOTTOI'@COlTONCPA.COM
             We tested sample bonds for compliance with SEA regulations for underwriting and fees by
     reviewing underwriting files and Safeco/First National's accounting records. We tested all claims
     incurred under the defaulted sample bonds through April 30, 1998, by reviewing Safeco/First
     National's supporting documentation in the claim files and accounting records. We obtained a list of all
     SEA guaranteed final bonds from Safeco/First National and identified all contractors with total bonds
     exceeding $1.25 million for contracts with the same obligee and bond issue dates within several
     months. We then reviewed project descriptions to determine if the bonds were for a single project
     divided into more than one contract. We also determined if any bonds were issued to contractors that
     were in default status prior to the bond execution dates.

            We conducted fieldwork in June 1998 at Safeco/First National's offices in Seattle, Washington.
    The audit was conducted in accordance with Government Auditing Standards, 1994 Revision, except as
    described below.

    FOLLOW-UP ON PRIOR AUDITS

           The scope of our audit did not include following up on findings and recommendations from
    previous audit reports.

    AUDIT RESULTS AND RECOMMENDATIONS

             Safeco/First)'!ational did not always comply with SEA's policies and procedures for
    underwriting bonds. Specifically, Safeco/First National issued a bond rider to add a co-obligee that
    was not bound by the contract with the principal; issued a bond after work started under the contract
    without obtaining SEA approval; issued bonds for contracts constituting a "single project" that
    aggregated more than $1.25 million; and did not maintain all required underwriting documentation.
    Safeco/First National also claimed unallowable expenses, including loss and expenses for defending
    itself against claims that it breached its duties and responsibilities under a bond and legal fees and
    expenses that constitute advances or loans to the principal. In addition, Safeco/First National did not
    pursue recovery under a subordination agreement. Finally, Safeco/First National did not remit fees
    related to contract increases to SEA. As a result, we questioned C t'i' · 4 J SEA's guaranteed portion
    of claims requested for reimbursement.

            We conducted an exit conference with Safeco/First National personnel on June 16, 1998.
     Safeco/First National disagreed with the findings, except one finding related to [    "~'-· Lj.  )
    [             n: t~>. G;<.. 4-                    J Its response to each finding is included in the
     appendix to this report.

            Our findings and recommendations are discussed in detail below.

                                                               J
         Safeco/First National issued performance and payment bonds to (      E)l . 4         ] for
(       GK. 4 J the contract amount. The contract was between 65 and 85 percent complete when
C H-4] defaulted. Safeco/First National paid losses and expenses of[ fJ'.-4 l under these bonds. We
 questioned SEA's 70-percent guaranteed portion of [       EK. +           ] for the reasons discussed
 below.




                                                        2
a.       Safeco/First National issued a dual-obligee rider to the performance bond naming [" <""f-,")
         C         f'X . 4            J as an additional obligee. (            e;" · '+                  :)
         however, was not a party to the contract between the original obligee and [.-c~ .4 ]Title 13,
         Code of Federal Regulations (CFR) 115.11, Defmitions, states that no person shall be named
         co-obligee on a bond or rider to a bond unless such person is bound by the contract to the
         principal to the same extent as the original obligee. Title 13, CFR 115.13, Defenses of SBA,
         states that SBA shall be relieved of all liability under the bond guarantee if the surety names an
         obligee on the bond who is not bound by the contract to the principal to the same extent as the
         original obligee. Accordingly, we questioned[:. E)IA ]SBA's guaranteed share of total losses
         and expenses paid under the bond ( [ «-l< .~ ]x 70%).

b.       Safeco/First National incurred legal fees of [ 61_.4 J to defend itself in a complaint brought by
         the obligee. The complaintE                       Be. 4-                                         J
     [
                    J The complaint was settled by compromise, [            c;: JC. A               -1
     [        GJi.. 4            J Title 13, CFR 115.11, states that loss is not to include costs or
     payments (for example, tort damages) arising out of a successful tort law suit initiated under the
     bond by a principal or any other person against the surety.

      In addition, Safeco/First National did not act prudently in light of its responsibility to mitigate
      losses. Title 13, CFR 115.62, Qualifications of Surety, states that SBA may suspend the
      preferred status of a PSB surety, if the surety has not acted prudently in its efforts to minimize
      losses. Safeco/First National stated in various correspondence to SBA that it elected to respect
     L€~-<.1- ] assertion that the obligee breached the contract. Further, Safeco/First National stated
      that it was unable to respond appropriately under the bond, because the obligee would not
      consider any performance or assistance by Safeco/First National unless [Ei<4)elected to waive
      its claim against the obligee. As a result, the obligee completed the work and filed the above-
      mentioned suit against Safeco/First National.

      Our review of Safeco/First National's file did not convince us that it could not have remedied
      the obligee without affecting [E>' A 1 ability to pursue its claim against the obligee, in
      accordance with the contract's provisions for handling disputes. As a result, Safeco/First
      National incurred expenses and losses of [ t-'1..4 ] under a bond with a contract amount of
     [ex. Y. J which was between 65 and 85 percent complete.

      For the reasons stated above, we questioned (e-~.4              J SBA's guaranteed share of unreasonable
      attorney fees and loss under the bond [[   €)(. 4                      JX   70%]. This amount was also
      questioned in a, above.

c.    Safeco/First National fmanced [ .O:t-.<1 ] of legal expenses in [ f~ A ] suit against the obligee.
      Correspondence in the claim file indicated that amounts paid to [Et-'i- J attorneys would be
      considered advances or loans under the indenmity agreement. The suit resulted in a r              ..\
      settlement r                                                                                          1
     r                                           f'<>,A &. . '-+                                           1

     Lprudently to mitigate its losses [    In this matter, however, Safeco/First National did not      ac~
                                                         E")l.   4-                                      ] In
     addition, Safeco/First National's claims-handling policies and procedures require SBA's consent


                                                     3
        prior to entering into financing arrangements with any principal. Accordingly, we questioned
       [ t.~·'+ J SBA's guaranteed share of [IS'<. 4] legal expenses ([tr;A ] X 70%). This amount
        was also questioned in a, above.

d.     Safeco/First National paid (    EJ< •  '*          J in five monthly payments for subsistence
       expenses. These expenses were not necessary for contract performance and were incurred after
       [a-~] defaulted on the contract. Subsistence expenses are not allowable losses or expenses as
       defined by Title 13, CFR 115.1l(b), (c), or (e). We questioned ( ~x. '-1 1SBA's guaranteed
       share of subsistence expenses ([€')'..'\ J X 70%). This amount was also questioned in a, above.

Recommendations: We reconunend that the Associate Administrator, OSG, require Safeco/First
National to:

I.      Reimburse ( f')C..4 ] of questioned costs to SBA.

2.     Revise its underwriting procedures to ensure compliance with SBA's requirements regarding
       dual obligees.

3.     Revise its claims processing policies to ensure compliance with the requirement to minimize
       losses.

Safeco/First National Response and Accountants' Additional Comments: Safeco/First National
responded to each of the four findings fort f?f... 4          J (a through d) in our draft report. We
sununarize its responses and provide additional conunents below.

a.     Safeco/First National: Safeco/First National stated that Cotton & Company's interpretation of
       the regulations is misapplied and that the regulations, the Information Book of the Preferred
       Surety Bond Program and the Preferred Surety Bond Guarantee Agreement, each allow tlte PSB
       surety to issue dual-obligee bonds with the proper language. The dual-obligee bond issued in
       connection with the [.;x .1.1 )bond contained the savings clause and other protective language and
       is in compliance with SBA regulations.

       Conon & Company: We did not question the fact that Safeco/First National issued a dual-
       obligee bond or that the bond did not include the proper language. We questioned SBA's
       liability under the bond, because the co-obligee was not bound by the contract to the same
       extent as the original obligee, as required by Title 13 CFR 115.11 and 115.13. These costs
       remain questioned.

b.     Safeco/First National: Safeco/First National stated that Cotton & Company's analysis is overly
       simplistic, because it incorrectly segregates the bad faith claim from all others. The claim
       arose from a dispute between the obligee and ((·x .4 J the obligee subsequently terminated
       [!.7ll'.4 1 contract for default. (•><· 4] asserted defenses to the claim and wrongful termination of
       its contract. Safeco/First National's initial investigation indicated that (o.Li ) defenses
       appeared reasonable. Safeco/First National, with obligations to both [ El<A]and the obligee,
       could not take a position detrimental to either party.

       Safeco/First National advised the obligee of the defenses asserted to its claim and of l ()I'. Lf :J
       potential counter claim and arranged for contract completion in a manner that would reserve the
       rights of both parties. The obligee would not agree to this, insisting l E)(. 4 J relinquish its


                                                    4
                                                                                                                 •.


     counter claim; the obligee elected to complete the project and file a claim against the
     performance bond and an additional claim for tortuous bad faith. l          fWI <1£. Y.       :J
                                                                                                             •
     [                      r i- .+                                             J Prior to trial,
     Safeco/First National settled the claim [  tll· '\ J while preserving [ u>Y J right to pursue its
     claim. Considerations for the settlement were merits of the obligee's claim (costs to complete
     the contract were reasonable), ongoing legal costs to defend the lawsuit, and the hostile legal
     environment [ f1<. • 4 J

     Safeco/First National stated that it would have settled for a similar amount even if the obligee
     had not filed a tort claim. Cotton & Company's contention that settlement was not the best
     course of action is speculative at this point given the facts, the complexity of the case, and the
     potential for greater defense costs. Safeco/First National handled the claim prudently and fairly
     and in compliance with the regulations.

     Cotton & Company: We did not question Safeco/First National's decision to settle when it did,
     considering the merits of the obligee's claim and mounting legal costs. We questioned the
     C H A ] loss because Title 13 CFR 115.11 does not allow costs or payments (tort damages)
     arising from a successful tort suit. In addition, we questioned the loss and the legal fees,
     because Safeco/First National did not act prudently when the principal defaulted. Our review
     of the file did not convince us that Safeco/First National could not have remedied the obligee
     without affecting[~~·~ ]ability to pursue its claim against the obligee, under the contract's
     provisions for handling disputes. Safeco/First National's own correspondence to SBA indicated
     that it was not able to respond appropriately under the bond.

     Safeco/First National stated that it would have settled for a similar amount even if the obligee
     had not filed a tort claim. This statement is not supported and does not appear reasonable given
     the fact that the ( ·~ ·'I 1 contract was between 65 and 85 percent complete at the time of
     default. These costs remain questioned.

c.   Safeco/First National: Safeco/First National stated that Cotton & Company's position was
     either an oversimplification or a true misunderstanding of surety law or the claims handling
     process. It stated that, as a surety, it has the authority to pursue all of (t)(.<\ ]rights, in which
     case it would have incurred the legal fees questioned in the report. Had Safeco/First National
     not pursued L{,f.. 4 1 claim, it would have been criticized for lack of effort to mitigate its
     damages.r
     I




     After the decision was made to pursue the claim, several developments reduced the value of the
     claim. Consequently, [eP11accepted a ( €~ A J settlement.

     Cotton & Company: We found no evidence in the claim file to indicate tltat Safeco/First
     National was even considering pursuing [£X.~ 1rights. Rather, ({1<.'1] requested the loan for
     legal fees under its indemnity agreement, and Safeco/First National asked its attorney ['
     [                                   EX·   4
                                                                                                       J
                                                   5
         r
         L                               j
                                             foil\   eX-'-\
                                            Thus, it does not appear that Safeco/First National's actions
                                                                                                            J
                                                                         r
         rL
          constituted typical surety law or claims processing practices.

                                             ~4
                                                                                                 .J Thus,
                                                                                                          _j_
                                                                                                            r
          if Safeco/First National had incurred legal fees, [ 4 ) would still have been responsible for
          repayment. These costs remain questioned.

    d.     Safe co/First National: Safeco/First National stated that the payments made to [~e~. ~)were in
          effect consulting expenses, which would have been incurred had Safeco/First National pursued
          the claim against the obligee. Had Safeco/First National not provided payments to [ E~. '1      1
         [ '+ J would have sought employment elsewhere. r·                                                  !
         (                                       E)+                                                      j

         Cotton & Company: [f~.'11submitted an itemization of living expenses, which Safeco/First
         National paid. These included vehicle expenses, utility costs, food, health insurance, cable
         television, and property tax. (ft. 'I )request for an advance indicated that (Q(.'l 1 seeking
         employment, but was experiencing difficulty obtaining employment. Correspondence did not
         support Safeco/First National's contention that (')1. ~)was paid consulting fees as compensation
         for services provided. These costs remain questioned.

[                                                             1
            Safeco/First National issued performance and payment bonds to [       <!~ · '1          J for
( <;~. '1        J one half of the contract amount, and paid losses and expenses (net of recoveries) of
 C""-· '1 1 under these bonds. We questioned SBA's 70-percent guaranteed portion ofC Ex 4 J
[ .,., . '1 J for the reasons discussed below.

    a.   Safeco/First National did not assess or remit additional surety and contractor fees to SBA for
         increases in contract amounts resulting from change orders, or notify SBA of the increased
         bond liability. Safeco/First National accepted the additional liability and submitted losses to
         SBA based on completing the entire contract. The contract amount increased by[ eo<. 'I J or 43
         percent, as a result of contract change orders. A Safeco/First National representative stated
         that it did not assess additional fee and premium, because [ 4 .J was in default and would not
         have been able to pay. The change orders were, however, approved prior to default. The
         surety bonds stated that the surety waived notice of contract changes; thus, Safeco/First
         National was not aware of contract increases until after the default.

         Title 13, CFR 115.13, states that SBA shall be relieved of all liability under the surety bond
         guarantee if the surety has substantially violated the SBA regulations in Title 13. Title 13, CFR
         115.6(c)(6)(i), Operations, states that the PSB must process bond liability increases within its
         allocation in the same manner as initial guaranteed bond issuances and present checks for
         additional fees due from the principal, computed on aggregate increases if they exceed 25
         percent or $50,000, whichever is less.




                                                       6
          We questioned       l   E~ .4   ] SBA's share of losses and expenses paid under the bond   <C   f~ .·'I ]   X
          70%).

b.      While Safeco/First National recovered remaining contract funds and attempted recovery under
        its general indemnity agreement, it did not attempt to recover losses under a subordination
        agreement between [            ~x ·'+              J The agreement subordinates the [ fl(. 'i J
        rights and claims against [ <+ ] to any and all rights of Safeco/First National in relation to a
       I. 4 ] debt to [ ~~-"' J In an interoffice memorandum, a Safeco/First National
        representative stated that the loan to [ ei. 4 J was repaid even though Safeco/First National
        had a subordination agreement.

          The subordination agreement states that Safeco/First National's loss is to be paid in full out of
      l    ~~- ~ .) assets before any payment on account of the indebtedness is made or realized by the
          creditor [ G'~ · '{ j . In addition, the agreement states that, in the event of a breach of any
          subordination agreement terms, the creditor agrees to hold all funds and the value of any
          property and benefit received in trust for the benefit of Safeco/First National and pay
          Safeco/First National on demand for reimbursement of its losses. Further, the creditor agrees
          to compensate Safeco/First National for any damage, in the form of loss or otherwise, caused
          or contributed by the breach.

          We did not find evidence that Safeco/First National pursued its recourse under the
          subordination agreement. Accordingly, we questioned l fl(.4 ] SBA's guaranteed share of
          amounts that should have been recovered under the subordination agreement ( [.~:-x. 4 J x 70% ).
          This amount was also questioned in a, above.

Recommendations: We recommend that Associate Administrator, OSG, require Safeco/First National
to:

1.        Reimburse [   ~~-   4 J of questioned costs to SBA.

2.        Revise its claims processing policies and procedures to ensure that all sources of recovery are
          pursued.

3.        Revise its underwriting policies and procedures to ensure that it is aware of all contract
          modifications, so Safeco/First National can remit additional premium and fees to SBA, when
          required by regulation.

Safeco/First National Response and Accountants' Additional Comments: Safeco/First National
responded to the two findings for L     R .4         ')(a and b) in our draft report. We summarize
its responses and provide additional comments below.

a.        Safeco/First National: Safeco/First National stated that the waiver of notice of contract
          changes is fairly standard language in bond forms, and case law has provided the surety with
          defenses when there is a gross contract increase without surety consent. It agreed that the
          increase exceeded SBA parameters and stated that, by the time Safeco/First National became
          aware of the increase, [El<. ~ Jwas in claim status. Safeco/First National could have billed C 4                J
          for additional premium and fees; due to ( 4 ] insolvency, however, the costs would have
          been added to the loss and in turn increased SBA' s liability. It would be unproductive to



                                                             7
             pursue premium and fees in this situation; if SBA insists, however, Safeco/First National can
             process the fees and related loss on the next bordereau.

             Cotton & Company: The change orders were approved before (~~.'I ·1 default, and thus,
             Safeco/First National should have assessed additional premium and fees when approved-before
             the default. Further, unpaid premium and fees are not losses or expenses under either the
             performance or payment bonds and therefore are not part of SBA's guarantee liability. These
             costs remain questioned.

    b.      Safeco/First National: Safeco/First National stated that a memorandum in the claim file
            related a rumor that l E~. 4 ] had repaid ( e;... 4 J in breach of the subordination
            agreement; there was no evidence, however,[e<-~) repaid the Joan. The cost of pursuing such
            an unclear claim would have exceeded any potential recovery; thus, Safeco/First National did
            not pursue the matter further. This course of action served as reasonable mitigation to the costs
            involved in the case.

            Cotton & Company: The correspondence referred to in the audit report stated "as it turns out
            the money was repaid and we have limited recourse against the lenders ( €')( • tf .J ".
            Safeco/First National did not provide evidence that the loan was not repaid. In addition, it did
            not provide documentation supporting efforts to pursue recourse against [ fX • '-t J or that the
            cost of pursuing recourse would exceed the [ E~ 4 Jsubordinated debt. These costs remain
            questioned.

l                     RIA   EiC. 4                                      J
            Safeco/First National issued a subcontractor performance bond to l       E)( - '+            1
[         IS>(. '1-  ] the contract amount. Safeco/First National paid losses and expenses of [ "•· 'I J
    and claimed SBA's share of( Ex. 4 lfor reimbursement as of Apri130, 1998. We questioned SBA's
    70-percent guaranteed portion of [       fx . 4      J for the reasons discussed below.
    a.      Safeco/First National executed the bond after work had begun under the contract. Both a
            consultant's report and an attorney's letter stated that work under the contract was started in
            March ( 41 The bond was executed on April 16, [ 4 J Title 13, CPR 115.64, Timeliness
            Requirement, states that a bond cannot be executed or approved by a PSB surety after
            commencement of contract work, u_nless the surety obtains written SBA approval by submitting
            a Surety Bond Guarantee Agreement Addendum (SBA Form 991), together with the evidence
            and certifications described in CPR 115.19(f)(1)(ii). Safeco/First National did not submit the
            required form or obtain SBA 's approval. As a result, SBA guaranteed an ineligible bond. We
            questioned [ <¥ .4 1 SBA' s guaranteed share of expenses claimed for reimbursement under the
            bond 1[ E~- 4] x 70%).

    b.     Safeco/First National made payments to [ Ex- '-1 ]vice president for assistance in validating
           claims under the bond. As of April 30, 1998, [&~. 4 ]had been paid. The general indemnity
           agreement between Safeco/First National and C E'x- 4- ]states that [ &J(. '+ ]agrees to pay all
           loss, costs, and expenses of any kind or nature incurred by Safeco/First National by reason of
           having executed the bond. Therefore, it is not reasonable for Safeco/First National to pay
           C GJ(.     +]vice president costs for which [ E'l-. 4 J is liable under the indemnity agreement.
           We questioned [ 4 J SBA 's guaranteed share of costs paid to the vice president (. [ Gl< . 'i ] x
           70%). This amount was also questioned in a, above.


                                                       8                                        Fell\ t!;<.   4
Recommendations: We recommend that the Associate Administrator, OSG:

1.      Require Safeco/First National to reimburse SBA questioned costs of [ EX .L\ ] To date,
        Safeco/First National remitted ( €~. <.f. j to SBA related to this finding.

2.      Deny any future liability under this bond.

Safeco/First National Response and Accountants' Additional Comments: Safeco/First National
submitted one response to the two findings for [     e:~. 4               J (a and b) in our draft
report. We summarize its response and provide additional comments below .
                                                                                  •.
        Safeco/First National: Safeco/First National was unaware that work had actually begun under
        the contract prior to issuing the bond, but the facts of the matter now seem clear. Accordingly,
        Safeco/First National has returned all funds it received to date from SBA. Discrepancies
        between Safeco/First National's and SBA 's records are the result of processing difficulties in
        the SBA system or checks issued by SBA that have not been received by Safeco/First National.

        Conon & Company: As of Apri130, 1998, SBA had reimbursed Safeco/First National L ElC .4]
        Accordingly, Safeco/First National should reimburse SBA an additional [ Ex ·4 ]

Aggregation of Contracts Exceeding Statutory Ceiling

        Safeco/First National issued bonds for two contracts aggregating more than $1.25 million;. the
aggregated contracts were with the same principal and obligee, and work was performed in the same
general location. The project descriptions for the two contracts were:

        •       Construction of the [                ~-..A   .<x. 4                    ']
        •       Construction of the (                f<,<A   <ex·.:.\.                 .J
        Title 13, CFR 115.11 (1994 regulations), states that the amount of the contract to be bonded
must not exceed $1,250,000 in face value at the time of the bond's execution. The amounts of two or
more contracts for a "single project" should be aggregated to determine the contract amount, unless the
contracts are to be performed in phases and the prior bond is released before the beginning of each
succeeding phase. A "single project" means one represented by two or more contracts with one
principal or its affiliates and one obligee or its affiliates for performance at the same location,
regardless of job title or nature of the work to be performed.

       We questioned the eligibility of the following bonds to [                            J   As of June 16,
1998, no claims had been paid under the bonds.

                               Bond No.                                  Amount


                              [ fxA      J                           [~A          1
                                 Total




                                                      9                                           Fo 1A I'O)l. 4
Recommendations:      We recommend that the Associate Administrator, OSG:

1.      Deny liability for these bonds if they have either not yet been closed or the warranty periods
        have not expired and claims are filed in the future.

2.      Require Safeco/First National to implement policies and procedures to ensure bonds are not
        issued for multiple contracts exceeding $1.25 million, if the contracts constitute a single
        project.

Safeco/First National Response and Accountants' Additional Comments: Safeco/First National
responded to the finding in our draft report. We summarize its response and provide additional
comments below.

        Safeco!First National: Safeco/First National stated that this issue appears to be a matter of
        interpretation of "single project" and the intention of the regulations. It cited three situations
        that it considers to comply with SBA regulations:

        o       A state highway department typically bids multiple projects on the same day, including
                several projects for work on the same road.

        o       A large project is often bid as multiple smaller projects to encourage local contractor
                participation and increase bidding competition.

        o       Many owners let work on an ongoing basis for maintenance and improvement projects.

        Safeco/First N ationa! contends that in each of these cases the work is distinct, intentions are
        honorable, and projects comply with SBA regulations. Safeco/First National stated that such is
        the case with the [ H.1A 'x . 4-     ] work; thus, it would be an improper interpretation of the
        regulations to deny the SBA guarantee on these or similar bonds.

        Cotton & Company: We do not consider the situations cited by Safeco/First National to
        comply with SBA 's regulations. In the cited situations, the contracts should be aggregated to
        determine if the maximum $1,250,000 contract amount is exceeded. We recommend that SBA
        legal counsel make a determination regarding this matter.

Underwriting File Documentation

        Safeco/First National did not always maintain the required underwriting documents in its
underwriting files. While the files contained copies of the bonds and contracts, they generally were not
signed copies. In addition, most of the underwriting files did not contain evidence of the power-of-
attorney.

         Title 13, CFR 115.21(b), Records (1996 regulations), states that a surety must maintain the
records listed for the term of each bond, plus additional time required to settle surety claims for
reimbursement from SBA and to attempt salvage or other recovery, plus an additional 3 years.
Further, if unresolved audit findings in relation to a particular bond exist, the surety must maintain the
related records until the findings are resolved. The records to be maintained include:




                                                    10
:




            •       A copy of the bond.
            •       A copy of the contract.
            •       All documentation submitted by a principal in applying for the bond.
            •       All information gathered by the surety in reviewing a principal's application.
            •       All documentation of any of the events set forth in CFR 115.35(a) or 1!5.65(c)(2).

            Safeco/First National stated that it does not usually keep a signed copy of a bond, contract, or
    documented power-of-attorney in the underwriting file; it can, however, obtain signed copies when
    necessary. Signed documents are essential to support adequate and proper underwriting and for
    processing claims and thus should be included in Safeco/First National's files. We were able to obtain
    executed copies of documents when necessary and thus did not question any costs related to this matter.

    Recommendations: We recommend that Safeco/First National maintain signed copies of bonds,
    contracts, and power-of-attorney letters in the underwriting files for all current and future SBA
    guaranteed bonds.

    Safeco/First National Response and Accountants' Additional Comments: Safeco/First National
    responded to the finding in our draft report. We summarize its response and provide additional
    comments below.

            Safe co/First National: Safeco/First National stated that the regulations require copies of the
            bond and the contract in the files, and it has retained such documentation. Cotton & Company
            recommended that the documentation be signed, which is not specifically called for in the
            regulations and is impractical in today's business environment. When necessary, Safeco/First
            National is able to obtain signed copies from the obligee. Safeco/First National is confident'
            that its documentation procedures comply with SBA regulations and does not feel any changes
            are warranted.

            Conon & Company: For the reasons cited in the audit report, we think Safeco/First National's
            files should contain signed and executed copies of bonds and contracts as well as documentation
            of the power of attorney.

    MANAGEMENT CONTROLS

             The scope of our audit did not include assessing management controls, and thus we did not
    identify or test such controls.

    SBA MANAGEMENT'S RESPONSE

               The Associate Administrator, OSG, reviewed the draft report of the performance audit of
      Safeco/First National, Safeco/First National's reply, and Cotton & Company's additional comments and
      stated that the auditors' recommendations appear to have merit. Because the issues surrounding the
    (        Fo tl\ Gli. . ~        J cases are complex and require interpretation of regulations and




                                                       11
.·


.
     procedures, additional information is needed and legal advice may be required before OSG can
     conclude its review of the report and recommendations. OSG witt implement these recommendations
     upon completion of its review, as appropriate.



                                            COlTON & COMPANY, LLP



                                      By:
                                            Catherine L. Nocera, CP
                                                                      (




                                                    12
                                                                                                Attachment


                                             SAMPLE BONDS


               Preferred Surety      Safeco/First                                        Bond           Bond
Sample         Bond Guarantee         National                                          Approval       Default
 No.                 No.              Bond No.                Contractor Name            Date           Date

  1
           I                                                                                               I
  2

  3

  4                                       FotA      f"x   +
  5

  6

  7
           L                                                                                               _j

      *   No claims had been paid under this sample bonds; thus, we only tested them for compliance with
          SBA's underwriting and fee requirements.




                                                      13
                    APPENDIX

SAFECO/FIRST NATIONAL RESPONSE TO THE DRAFT REPORT




                        14
                                                                        ro               [    E~· (,     J    P.02

        -                                                  -


        F_IRST NATIONALSUZDY
    -~-~~---                                     ---~-




SAFECO INSURANCE COMPANIES
SURETY D£PAR"TMEH'T (T-Il)
SAFECO Plazo
Seollle. WA 98186


Sep\mll>er 9, 199S

Mr. RDbert J. MoffiU
As&o~              A.dmini5Ualor, omce of Surety Ouar:~~~~tee~
U.S. Small »usiDcss Adminimation
409 Third StRCI. SW, Suile 11600
Washiopon, D.C. 20416

Dear Mr. Moffitt:

.Re:          SBAchftlludit report

r appnx:ialc the opportunity to review a copy of the diaft fiDdiJlp that ~ted from !be audit
OClllductal in om office in June of lhls year. Hopefully. with this type of ~ commllllil:alion we can
address any di1Jem~<:a in opinion and come to a reasoned delerminarion on the issues at hand.

~ first tbiDj; that comes to my atu:mion in rcviewins tbe audir rcpon is !hat the scope of the audi\
involved a very small numbc:r of bonds. The gem:ml conc:lusions tbal were reached wen: DOl -my
13vorable and the toJJiul of the rcpon failed 10 acknowledJ" the hunclrccls of thiDgs that ""' have done
right sinoe ent&rinc the progtam back in 1992. However, I am confidem that you r:ecoprizc - .
positm couaibatiODJto the Preferred SW"ely Bowl prOJilllll.                                              ·

1be audit resuiiS aDd r:ecommendali01111 covCTCd boDds for the l     £>1 • 4            J accouJIIs, as
well as, discussinc the iosucs or the aggrcption of contniCIS and llllderwriting lile documtnlalion. J
will aaempt to be bric:f, but will otrer a mpo~~~e1o each of thc<e ~ issues.

[                                                                J
•       Dual-obligee rider

         The auditol's intl:tpmation of the regulations is misapplied in this sitllation. The regulatioDS. the
         lllformation Book of the Pn:feued Surety 80114 PJOgnm and the l.J. S. Small Bu&ineso
         Aclministtation Plefentd Surety Bond Guarantee Agrument all allow for the PSB surety to issue
         clual-oblipe bcmds with the proper language. The dual~ bond lhaJ was iSS\Itd in
         conneeUo.n with [ tX. 4 J boDd conlaitled a., AVinp clause and other p!"CI(eCtM lan8ul8c aarl is
         in compiiaDco with the SBA regulatiom. A=rdin!iy, this is not a basi5 font.-iDDiDg c:overap
         of the SBA 81J81811111e .

    •       Lepic-oCC         E-~-4    J
            The auditor's aaaiyAs here is overly simpliltic, as it inoomaly seJ:Rg;dcd OUI ODe claim against
            rust  NatiCIIlll, the bad faith claim. from all the others. Claims maucrs are often complex aDd 1he
            situation tmds to be fluid. Taigetitlg oae issue after the fact to establish a basis for the dariaJ of
            tbe SBA guanmtee does a clisscrvice to tbe tacts of the case, as well as, to the spirit aDd lel1er of
            the RgU!aticas that grant 1llldent'ri1in& aDd c:laim& bandling authodty to the PSB surclica.

          The daim in Oils case arooc from a dispDte between the obligee. (                 E)( • 4              J
        ( H-· 't     1
                     aod with the oontractot.[. 4 J Ewntually, [ >! ) was defaulted by the oblicee and iiS
          conuact was Wlllinulccl. [       +
                                           J asoerttd dcrct..... to the claim against its bond and cWmed the
          teuniDation of its conaact ,.-as wroqful. Our illitial invcsligalion indic:at&:d the: defenses railed by
        [f)(. 'I Jappeared reasonable. It is imparwu to point out that as a surety we ha~ obligali0111 to both
          our p:iDcipal and the obligee. When thele exists a bona fide dispute bctwCCil the prim:ipal aDd
                    ,-1"\UII   .JoPM       U.llo.J   MU'-'' I   1J,V.                      ro                              ] P.03




        oblij;ee the surety cannot take a p015ition that is dclritnemal 10 one patty over the other. If it did,
        then the surety wonld potentially be subject to the claim of the injured party.

        In Ibis sittmlion we acMsed the obligee of the dcfnses asserted 10 iiS claim and the poiCntwl
        tountr:r-claim l •x. '-\ ] None-the-Jess we attempted 10 ammge for completion or the project in
        sw:b a way as 10 allow both obligee and princioal10 n:sczw thcir Tcopocti"" rights. The obli&cc
        woold llOt agree 10 Ibis as they iDSiSitJd that ( 1.\ 1relinqoisb i1s ooanlet-claim. ltlstc.-.d the obligee
        elected 10 complete the project and file a complaint against the perfotmai~~:C band and an
        additional claim for tottuow; bad faith. [                     "'"· '-l                                     J
        C                         f"~ .              '+                                              ]
                                                                                       Prior 10 JIOUJg to trial we
        settled with the obligee fm [ 4 :] while =erving ( Lj J rigb! to pu=c an at!iTlllatM claim.

        'The wnsiderlttiOIIS for this stti!CIIICIII ~;

        I. Mcriu of obligcc's claim. A n:asouable costiO complete the project.
        2. Ongoillg cost of de!C111e of lawsuit.
        3. Hostile legal mviranmt:DI. [                     ( 1< . y                                                        J
          [                        6-4                                        J
    Had the obligee JJeWr filed a tort claim against us we &tiD 'WOilld haw oellled for a Wnilar &mCIIIDl
    1be comcnlion by the auditors that seulemcn! was 1101 the best course of action given the f8CIS, the
    complcxilics of the case and the potential for greater de feme c:osts is speo;ulatiDn at this poim. first
    National bandied the claim in a prucleor and fair Jll8lllla' and in complianc:e with the regulations.

    In light of1bese facts we ~that the [                         4      ] i11lcg;d fees arc allowable. No ftmds are then due
    10 be .mumed 10 the SBA.

•       Legal fees of [ Et .<\-        ]
    Apin, the posilian 1akcu by lhc auditors is an ovw simplificatioll or a ll'UC misuDdcm.anding of
    citbeJ sme:y law or of the cJaims..bandling proem. As a smcty in a situation like tbis we bavc the
    right 10 step into the principal's shoto and tbroush Jubroj:ation pursue an of their rigltla. Had we
    c1eeted 10 do that Firsl National wonld ha~ inewred the above legal fees in filing suit against the
    obligee. Eilhu way, there was soing 10 be a cost 10 )l\II51Iblg a claim apinst the obli&cc. I wish to
    poiDI out that bad we 1101 taka any aaion to pursue this claim we would likely have received
    aiticism from tbe SBA for our lad of effon to mitigate our damages. 'The SBA can't bave it both
    ways. r                                                                                             1
    [                                                     F.,,A         .;y       '+                                              J
                                                          c;;,A E' <)                                                            J
    Fmtbermote,. contraJy to the audilar's aosenion, tbe SBA regnlarions Jr.1111 to the PSB surety tbe
    aulhority 10 maaacc and settle clllims and losses ,.;tl10111 plior approval of the SBA aDd as a result
    our ~ons were in CXIIIlplilllll% with our procedures and with tbe regulations.




    [
        Subsequent to this deciJion being made ~raJ
        First, the cooi!OlDic COIIdition C £>< . '-\
                                                                 t/(.    4
                                                                                  ~opmenls
                                                                                  J    changed I
                                                                                                   Rduoed the value of Ibis claim.
                                                                                                                                  J
                                                                      ~X+
                                                                                         _J ConSO>qUently we accepted
                                                                                                                                  J
                                                                                                                        (•~<- 't J as
                                                                                ro               [     f')(.(&.    J    P.04
:




              h:J light of these fal:ls we feet that the [ e,c .4 J in legal fees arc allowable. No funds arc: then due to
              be rctmned to the SBA.

        •      Subsi$1ence support oft E-1.. L.f      J
              Had ...., dccted to punuc the claim againstlhoe o\lligee .,.,...,lves we would haw bad to main a
              ccmsu1tam to prqlal'l: and porsue the claim. Tbc cost of 1llis amsullant would vay likcl)· ~ been
              far ill excess of ( E'X- 4 J Bill, giwm the lQSOIIS aniculatecl above we electl:d to have [ 4 1 '""""'
              lhis claim. Tbc paymcms made to [ .-x. 't ] were, in effect, ooDSU!liDg cxpeases. A& ( e-x. '-1 J
                                                                                       [
              bad DO other livclihoocl, had we not reached 1llis =~ 4 J would haw had to seck
              emplaymeat elsewhere. We fell it was in our interest to h.'lVe ( y J urulivided atlmtion wbile this
              claim was being prepared and pursutd

              In ligb! oftbex facts we feel thai the [ r,_y ]in cxp<:nscs arc aDowablc. No funds~ then due to
              be notumed to the SBA.

    [                Poll\   t'l<.   4                                     J
        •      Remittance of additional fc:cs due to an iDcn:asc in the contract price.

               The auditors .seem to hav.: a few issues here. These include the wai- of notice by the surety of
               cbaDges to the coDIJact and the non-paymcm of aclditional fees due to an iDI:rcase iD the COilU'IU;I
               aJilOIIIIl

               The ..u- of 1101ice to cbanges iD the conuact has become fairly staDdard language in bond fonns
               IMif theyan and this provision is fowJd in many public aod pnmc bond forms. Case Jaw hal
               provided the san:ty with clcfmses whm lh= is a srvn inaaoc ill the ODDIJact pnce witbaiJt
               OOIISUiti!lg with and receiviDg the COIIRIIII from the sumy. In tbis case the initial oonttact was
               Rlatmly 5lllalJ, so a IIOIIIinaJ iDacale could be perceived as bein; material md the actual iDinase
               ctid e:u:eed the 25% 01 $50,000 SBA parame1cn. However, by the time we became aw.uc of tbe
               ioacasc: the ooDIJactor was aln:ady in claim and ultimately became a lou. At this juuctun: we
               cauld haw billed the c:onllaCtor for iDamses iD the pn:mium aod SBA c:onttactor feel. but due to
               the insolvency of the c:ontrac:IOr these costs ..~d simply be addcclto the loss and in tum ina'casc
               the SBA's liability. It would seem unprocluctM: to Jliii'S1IC ~ and fees in this type of
               simaticm. but if the SBA iDsists upon an accounting for lhese items. then we can process the fees
               and the relatod Joss in via 1111: next bordcRau.

        •       R.ec:onry eiJorts relatiw to the solxmlinated debt

                The 811ditnr's asscrt thai Fin! National failed to .J111fSUC its rigbts WldCI' a subcm!inalion agliCCJIICilt
                JdatiDg to a !01111 from t Q.. 4-             .J Yoo will recall prior to writibg my bond for this
                c:oatzactorwe asbd for, and obtaiDod, a Sllbonlination of the rigllls of [ (;J.. 4              .J under a
                loan--. 1bcrc iii a IIICIIID ill the file from a !ii&t Nationalllllderwritcr Rlatinr; a fUilll>l that
               [ EX. 4 )had repaid [ f.>(. 4 Jill bre:lel\ of our suboniinatiOD llgiCCIIICftl. However, there was
                no evidCDCC that [ E;l.. <1 1 bad repaid the loan. it was merely ltear&ay and .RllllCJ[, h:J addition the
                0051 or JIIIIS1IiDg &ach an unclear daim WOIIId likely ~ exceedccl any polelltialtCIOOvery. BNCd
                on this we dcQdod not to "thrvw good money after bad" and did 1101 pursue 1hc: matter further.
                This coarae of action served as a reasoDable mitiption to the costs iiM>lvecl in tbis ,_,

                lll!iploftbclc facts the [E~-Y ]in C06U are allowable. No fuDcl5 are then dneto be tctuuoed to
                the SBA.

        [

            1be illilllitors delamined via a cJaDus c:onsultanl trpDit that wmit had actually be""' OD this CO!!tract
            bdore the bond WiiS issued ami that the SBA form 991 had not been complelccl a forwarded to the
            SBA for approval. Finlt National did DOl know this simarioo at the time of writing the bolld. but the
            Caets or the matt<:r now so:""' clear. Ac:cordingly, we ~~an a1mtdy retumed all of the funds that we 'w
_.                                                                        TO               (     8(   -I.>   J    P.05




     received to date from t)le SBA Itlarive to this loss. Any discnpancy iD amOIIIII! between our rec::onls
     ;md the SBA's m:ords arc due to processing difficulties in tbe SBA system or due to checks issued by
     the SBA that have uot been received by Fu&t NatioJial.

     AJW q:ation of Coolra<b bceediaa Statvtory Ceiliq

     Tbe auditors c:i1c Tille 13 CFR llUl. DefioitiODS with respect to work pcrf011Dcd for an obligoc
     UDder a "single project". The issue here appears to be a matter of inlcrprwticm and the iDtcDtioa of the
     ~ODS.

      Tbe COIICenl is that a principal aod ao obligee will split up a specific projec:t ioto smaller pieces in
      order to cin:am\'CIIt t)le SBA bond 5ize limitation of $1,250,000. In doiJtg so the work may actually
     proceed concwremJr and as a tauh the real Ii&k to the project. the cmuractor, the sumy and the SBA
     i& iD an amOWif that exceeds the size limit and 01-ould make these bonds ineligible ror the SBA
     guaran!CC.

     _The: ab<M sceDalio Deeds to be <XlDICISicd to sc:vcrallcptimalc situaliODS. A stac ,highway dcpaiiiDf:lll
      typically bids mulliple project3 ·on the &IIIIIC day often includit>g JtVaal pro;ec&5 that call fOr worl< DD
      1bc &IIIIIC road. I..aq:e public and priv;llc OWIJelS often have li=lble capital impr~melll propams
      that are bid 0111 at or ncar the $3mC time iD multiple. smallu jobs, in order to ~ loc:al coatractos:
      participation and to iDcrease bidding cmnpctition. - Many owners let wmt on an ongoing basis for
      ongoing mainlai.111Ce and iiiipro=nts to their site aod facilitic:o. In each of these cues the wadi: is
      distinct, the intentions are honor.Jble aod they are all in compliance with the SBA regulatiolls. Such is
      the case of the [          ~otA ex_ ~                   J
     While there is no c:laim or loss experienced or anticipated on these bonds, it -would be an improper
     intcrpn:tarion or the reralatious to dclJy the SBA guarantee on these or similar bonds pr<MIIecl for
      otbcr CUSIOJitCrS,

      lladerwritiaz File Doaam...tation

      The audilors an: a,gain making an e:cucmc intc~pmaticm of the re;ntations The regulations call for
      eupia of the bond and the comract. We have TCUUncd such doCIIITICIIIalicm in OOI files. The di1ference
      is that the auditors are ~ that this documentation be copies or the signed bonds, CODIJaCtl
      and powers of attorney. While this RCOIIIDlendation may be ideal. this requiraneln isn'l spccilically
      called for in the rcgulatiOIIJ aDd it is simply an impractical ideal iD toclay"s business cmirtmmmt. his
      a cha!!euge enougb 10 gel any copy of this iDformation, let alone copies of the signed clocurnmla. Jf it
      becomes necessary to teVie>l· the signed pap~ i.e.. in a claims oituation, then we are able to
      obcai.n copies from the obligee. We arc confident that our documcnlation proccdun:s are in compliance
      with the SBA reraJatiOIIS and do 1101 feel that any t:han&a are Wiiiiaull:d.



      It is our opiui011 thai based upon the rqulatiOIIJ and tbe fac1s 81 hand that the COSIS associalcd with the
            - '-l
     (_ <i' y.         ] losses an: le~ and allowable under the SBA egolaticm. As sud!, - do 1101
      fed that any of the recommended refunds are cine to the SBA We do, however, acknowlodgc: the
      inadn:rlcm sitnation with [ €)(- 4 ] and we llavc aln:ady rectified that molter. The issuc6 of coll.llXt
      aggregation and lile dOCUIIitJilaticm appear 10 be misimapetatiOIIS of the regulations by llic auditors
      and we feel that DIU CiliJelll handling procedure:. are in tompliaoce with the SBA guidelines.

      I, apin, thaDk yot1 for the opportllllity 1<> clarify the ;,._...,... T.n.cd in the dtaft audit epolt. If you ~
      any queslions, or wwld like to discuss these matters fmther, then plcuc fcel.fn:c 10 pvc me a call.




                                                                                                                 TOTFL P.05
                                          AUDIT REPORT DISTRIBUTION


Recipient                                                                                                      Number of Copies


Associate Deputy Administrator for
  Capital Access ........................................................................................................................ I

Associate Administrator for
 Surety Guarantees .................................................................................................................. 2

General Counsel ........................................................................................................................ 2

Associate Deputy Administrator for
 Management & Administration ............................................................................................. !

Office of the Chief Financial Officer
   Attt: t E..,._. (.p ..................................................................................................................2

General Accounting Office........................................................................................................ I
